'i

s «•*'.

h ,'■'] b'

■ ■■»!hmi: je3

W H ii'-

No. TBA

;'• f.j’Ui ,: : ]/b vj

b b \ -Ul v;ib

Supreme Court, U.S.
In The
FILED
Supreme Court of the United States

|

JUM 1 8 2020
C_2Si-l'THE CLEDK

ROY HOWARD MIDDLETON, JR
Petitioner,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS, Mark S. Inch
and
ATTORNEY GENERAL OF FLORIDA, Ashley Moody,
Responden t(s).

On Petition for Writ of Certiorari
To The United States Court of Appeals
For The Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Roy Howard Middleton, Jr.
Petitioner, pro se
Desoto Correctional Institution
13617 South East Highway 70, Arcadia, Florida 34266

\

QUESTIONS PRESENTED
I.

Petitioner asks did the United States Court of Appeals for the Eleventh

Circuit and the District Court for the Northern District of Florida apply federal law
issued by the Supreme Court of the United States in a way that frustrates and
undermines its holdings set forth in Price v. Georgia, 398 U.S. 323, 90 S. Ct. 1757,
26 L. Ed. 2d 300 (1970) (citing Green v. United States, 355 US 184, 78 S.Ct. 221 2 L.
Ed. 199. 205, 61ALR2D 1119 (1957))?

II.

Petitioner asks did the United States Court of Appeals for the Eleventh

Circuit and the District Court for the Northern District of Florida apply federal law
issued by the Supreme Court of the United States in a way that frustrates and
undermines its holdings set forth in Strickland v. Washington, 466 U.S. 668. 687
104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984)?

1

%

LIST OF PARTIES
THE LIST OF THE PARTIES TO THE PROCEEDING IN THE COURT WHOSE
JUDGMENT IS THE SUBJECT OF THIS PETITION IS AS FOLLOWS:

1.

Ashley Moody, Attorney General for the State Florida

2.

Honorable W. Joel Boles, Circuit Court Judge, 1st Judicial Circuit, Escambia
County, Florida

3.

Roy Howard Middleton, Petitioner

4.

Michael R. Ufferman, Private Attorney, Tallahassee, Florida

5.

Nancy A Daniels, Public Defender, Escambia County, Florida

2

TABLE OF CONTENTS
Questions Presented

1

List Of Parties

2

Table Of Contents

3

Index To Appendix

3

Table Of Authorities

4

Opinions Below

6

Jurisdiction

7

Constitutional And Statutory Provisions Involved

8

Statement Of The Case

9

Reasons For Granting The Petition

12

Conclusion

20

INDEX TO APPENDIX
Appendix A

Order of the Eleventh Circuit Court of Appeal denying a certificate of
appealability

Appendix B

Order of the Eleventh Circuit Court of Appeal denying motion for
reconsideration

Appendix C

Order from the District Court of Appeal denying petition for writ of
habeas corpus

3
\

TABLE OF AUTHORITIES
Cases
Barefoot v. Estelle, 463 U.S. 880. 893 n.4, 103 S. Ct. 3383,
77 L. Ed. 2d 1090 (1983).................................................

19

Brown v. Ohio, 432 U.S. 161. 97 S. Ct. 2221, 53 L. Ed. 2d 187 (1977)

12

Earvin v. Lynaugh, 860 F.2d 623. 627 (5th Cir. 1988)

17, 18

Green v. United States, 355 US 184, 78 S.Ct. 221 2 L. Ed. 199. 205,
61ALR2D 1119 (1957.....................................................................

1

Knowles v. Mirzayance, 556 U.S. Ill, 123, 129 S. Ct. 1411,
173 L. Ed. 2d 251 (2009).................................................

18

Middleton v. Sec'yDep't of Corn, No. 19-12380-B, 2019 U.S. App. LEXIS 36025
(11th Cir. Dec. 3, 2019).........................................................................................

6

Middleton v. Sec'y Dep't of Corn, No. 19-12380-B, 2020 U.S. App. LEXIS 8878
(11th Cir. Mar. 20, 2020)...................................................................................

6

Middleton v. Sec'yDep't of Corn, No. 3:l7cv261, 2019 U.S. Dist. LEXIS 86996
(N.D. Fla., May 23, 2019).................................................................................

6

Middleton v. State. 131 So.3d 815 (Fla. 1st DCA2014)

10

Middleton v. State. 41 So.3d 357 (Fla. 1st DCA 2010)

9

Miller-El v. Cockrell, 537 U.S. 322. 335-36, 123 S. Ct. 1029,
154 L. Ed. 2d 931 (2003)...................................................

19

Morris v. Mathews, 475 U.S. 237. 106 S. Ct. 1032, 89 L. Ed. 2d 187 (1986).. 13, 14, 15
Price v. Georgia, 398 U.S. 323. 90 S. Ct. 1757, 26 L. Ed. 2d 300 (1970)

passim

Slack v McDaniel. 529 U.S. 473. 484, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000)
Strickland v. Washington, 466 U.S. 668. 687, 104 S. Ct. 2052,
80 L. Ed. 2d 674 (1984)........................................................

19

1, 16, 17, 18

Tennard v. Dretke, 542 U.S. 274, 282, 124 S. Ct. 2562, 159 L. Ed. 2d 384 (2004)

19

United States v. Ball, 163 U.S. 662. 16 S. Ct. 1192, 41 L. Ed. 300 (1896)...........

13

Williams v. Taylor, 529 U.S. 362. 413, 120 S. Ct. 1495,
146 L. Ed. 2d 389 (2000)..........................................
4

16, 19

Statutes
Title 28 U.S.C. S 2254

16, 17

Title 28 U.S.C. §1254

7

Other Authorities
Fifth Amendment, United States Constitution

8, 12, 13, 18

Fourteenth Amendment, United States Constitution

8

Section 9, Clause 2, United States Constitution

8

Sixth Amendment, United States Constitution

8

5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review
the judgment below.
OPINIONS BELOW
The opinion of the United States Court of Appeals denying a certificate of
appealability appears at Appendix A to the petition and is reported at Middleton v.
Sec'y Dep't ofCorr., No. 19-12380-B, 2019 U.S. App. LEXIS 36025 (11* Cir. Dec. 3,
2019).
The order denying reconsideration appears at Appendix B to the petition and
is reported at Middleton v. Sec'y Dep't of Corr., No. 19-12380-B, 2020 U.S. App.
LEXIS 8878 (11th Cir. Mar. 20, 2020).
The opinion of the United States District Court appears at Appendix C to the
petition and is reported at Middleton v. Sec'y Dep't of Corr., No. 3:l7cv261, 2019
U.S. Dist. LEXIS 86996 (N.D. Fla., May 23, 2019).

6
\

JURISDICTION
The date on which the United States Court of Appeals decided this case was
December 3, 2019.
A timely motion for reconsideration was denied by the United States Court of
Appeals on March 20, 2020.
The jurisdiction of this Court is invoked under 28 U.S.C. §1254 (l) and
Rule 13.

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Section 9, Clause 2, United States Constitution, “The Privilege of the
Writ of Habeas Corpus shall not be suspended, unless when in Cases of
Rebellion or Invasion the public Safety may require it.”
Amendment V, United States Constitution, “No person shall be
deprived of Life, Liberty or property without due process of law...”nor
“twice put in jeopardy of life or limb” for the same offense...
Amendment VI, United States Constitution, “In all criminal
prosecutions, the accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have
the Assistance of Counsel for his defense.”
Amendment XTV, Section 1, United States Constitution, “No State
shall make or enforce any law which [...] shall deprive any person of
life, liberty, or property, without due process of law! nor deny to any
person within its jurisdiction the equal protection of the laws.”

8

STATEMENT OF THE CASE
The state court records reflect the essential and material facts are as follow.
On July 20, 1998, the State Attorney for Escambia County, Florida filed an
Information charging Petitioner with Second Degree Murder with a Firearm.
On October 6, 1998, this charge became null and void when the State filed an
Indictment charging Petitioner with First Degree Murder with a Firearm.
On June 6-8, 2000, a trial by jury was conducted wherein the jury returned a
verdict, apparently giving Petitioner an “implied acquittal” of First Degree Murder,
finding him guilty of the lesser included offense of Second Degree Murder with a
Firearm! therein the trial court sentenced him to thirty-five (35) years
imprisonment to the Department of Corrections (DOC).
Thereafter Petitioner filed a Motion for Post Conviction Relief which was
reversed on appeal and remanded for a new trial. See, Middleton v. State. 41 So.3d
357 (Fla. 1st DCA 2010).
The state court record further reveals that although the jury had acquitted
the Petitioner of First Degree Murder by finding the Petitioner guilty of the less
serious offense of Second Degree Murder, at the new trial, the State in violation of
the federal constitution protection against double jeopardy, once again, under the
original indictment, pursued a charge of First Degree Murder. At trial the Petitioner
was found guilty by the jury of First Degree Murder.
Petitioner appealed on grounds of double jeopardy and the First District
Court of Appeals agreed with the Petitioner; and without directing the lower court
to retry the Petitioner on the charge of Second Degree Murder, the appeal court
9

reversed and remanded back to the lower court with instruction to simply resentence Petitioner under the judgment of the lesser included offense of Second
Degree Murder. Thus, the trial court sentenced the Petitioner to thirty five (35)
years imprisonment. See also, Middleton v. State. 131 So.3d 815 (Fla. 1st DCA2014).
This was the initial manifested error in this case which results in a
miscarriage of justice, as it violates the prohibition against double jeopardy. The
state appeal court was without authority to enter the unlawful judgment for Second
Degree Murder and the sentence meted out by the trial court.
This is true because the trial for the First Degree Murder was unlawful since
it runs afoul of the federal constitution prohibition against double jeopardy. When
the state appeal court entered that judgment for the Second Degree Murder, it
deprived the Petitioner of the opportunity to have a jury hear the case of Second
Degree Murder and the lesser included Manslaughter. The jury was also forbidden
from further debate of Petitioner’s innocence.
It was clear error, committed by the state appeal court, to strip the jury of its
pardon power on the charge of Second Degree Murder. There is a reasonable
probability that had the jury received the Second Degree Murder trial, the jury
would have at the very least, been allowed to pardon the Petitioner of Second
Degree Murder.
After several attempts to have this manifested error/miscarriage of justice
heard in post conviction motions and appeals (to no avail) in the state court the
Petitioner presented the same federal claims to the Federal Northern District Court

10

of Florida. However, instead of correcting this federal constitutional manifested
error, the Federal Northern District Court of Florida entered an order summarily
denying Petitioner’s Federal Habeas Corpus Petition. Further, the District Court
entered an order denying certificate of appealability, leave to appeal in forma
pauperis and directed the Clerk to enter judgment against Petitioner.
Even though, the record reflects clear manifested error, the Eleventh Circuit
Court of Appeals has declined to hear and review this constitutional error. By the
Eleventh Circuit failure to review and correct the manifested error committed by all
the courts before it, federal and state! thus, this Court must constitutionally
intervene to rectify a fundamental miscarriage of justice.
More so, the court seemingly relied on the state’s factual propositions and
citations, which were inaccurate and erroneous resulting in a manifested error of
law and fact.
As a result of both state and federal courts ignoring such constitutional
violations, the Petitioner now sits imprisoned doom to spending a large portion of
his life condemned without just opportunity to be heard by a jury.

11

REASONS FOR GRANTING THE PETITION
I.

The United States Supreme Court has authority to reverse a circuit court of

appeals decision to affirm the District Court’s order denying a petition for writ of
habeas corpus attacking a state conviction on federal grounds where it
misconstrued, misapplied, or misconceived an applicable United States Supreme
Court opinion.
Petitioner relies on the following analysis which demonstrates a sufficient
reason and/or justification for this Court to grant this writ. The Petitioner asserts
that a double jeopardy violation occurred when his conviction was reversed on
appeal, and the State retried him on the same charge, under the same indictment,
and bearing the same docket number. The Double Jeopardy Clause of the Fifth
Amendment provides that no person shall “be subject for the same offense to be
twice put in jeopardy of life or limb.” This clause protects against (l) a second
prosecution for the same offense after acquittal, (2) a second prosecution for the
same offense after conviction, and (3) multiple punishments for the same offense.
Brown v. Ohio, 432 U.S. 161. 97 S. Ct. 2221, 53 L. Ed. 2d 187 (1977).
The underlying facts of this case are strikingly similar to Price v. Georgia,
398 U.S. 323, 90 S. Ct. 1757, 26 L. Ed. 2d 300 (1970).
It is undisputed that petitioner's second trial for first degree murder, after
having previously been acquitted of that charge, violated the Double Jeopardy
Clause of the Fifth Amendment.
In Price v. Georgia, 398 U.S. 323. 90 S. Ct. 1757, 26 L. Ed. 2d 300 (1970),
Price was charged with murder and the jury returned a verdict of guilty to the
12

lesser included crime of voluntary manslaughter. Price's conviction was reversed on
appeal due to an erroneous jury instruction, and a new trial was ordered. Price was
subsequently retried on the charge of murder, and the jury again found him guilty
of voluntary manslaughter. Price was denied relief by the Georgia Court of Appeals
and the Georgia Supreme Court. This United States Supreme Court granted
certiorari and reversed. Citing to United States v. Ball, 163 U.S. 662. 16 S. Ct. 1192,
41 L. Ed. 300 (1896), this Court noted, “The ‘twice put in jeopardy’ language of the
Constitution thus relates to a potential, i.e., the risk that an accused for a second
time will be convicted of the ‘same offense’ for which he was initially tried.” Price,
398 U.S. at 326. This Court found that because Price was tried on the same charge,
the risk of conviction on the greater charge or murder was the same in both cases,
and the second trial violated the Double Jeopardy Clause of the Fifth Amendment
because it is written in terms of potential or risk of trial and conviction, not
punishment.
In Morris v. Mathews, 475 U.S. 237. 106 S. Ct. 1032, 89 L. Ed. 2d 187 (1986)
this Supreme Court later distinguished Price from proceedings in which the jury did
not acquit the defendant of the greater offense, but found the defendant guilty of
the greater offense, and thereby guilty of the alternative lesser offense.
The Louisiana Supreme Court twice relied upon Mathews, to conclude that
although the State erred in retrying the petitioner for the crime of aggravated
burglary, the jeopardy-barred prosecution was remedied due to the petitioner

13

ultimately being convicted of unauthorized entry of an inhabited dwelling, which is
a lesser-included, nonjeopardy-barred offense.
In Mathews, James Mathews was initially charged with aggravated robbery
to which he pled guilty. Mathews then (unlike petitioner herein who claimed self
defense) made additional incriminating statements, leading to him being tried for
and found guilty of aggravated murder. He was sentenced to a term of life
imprisonment. On remand, the appellate court determined that the Double
Jeopardy clause barred Mathews's conviction for aggravated murder, and, in
accordance with state law, modified the conviction of aggravated murder to murder
and reduced Mathews's sentence.
In Petitioner’s case, the state appeal court agreed with the State that the
proper disposition was not to reverse and remand for a new trial but rather to
reverse and remand with directions that the trial court reduce Petitioner’s
conviction to the lesser included offense of second degree murder with a firearm and
re-sentence him accordingly, relying solely on Mathews, supra.
In order to cure the constitutional infirmity in this case, the Petitioner, at the
very least, should be placed back into the original position minus the influence of
the error, which the state court found to be satisfying to grant a new trial on second
degree murder. Middleton. 41 So.3d at 362. Evenly, had the state court followed the
dictates of Florida Statute 924.34 Petitioner, at worse, would have been faced with a
trial for second degree murder with manslaughter as the lesser included offense.
Instead, the state court decided to give Middleton a conviction of second degree

. 14
\

murder (without a jury’s finding of such); thus, putting him in a far worse situation
than he was in prior to the error.
Consequently, this decision caused Petitioner to suffer a true miscarriage of
justice. As noted by this Supreme Court, the only issued before it was “whether
reducing respondent's conviction for aggravated murder to a conviction for murder
is an adequate remedy for the double jeopardy violation.” Id. at 245. This Court held
that, “when a jeopardy-barred conviction is reduced to a conviction for a lesser
included offense which is not jeopardy-barred, the burden shifts to the defendant to
demonstrate a reasonable probability that he would not have been convicted of the
nonje opardy-barred offense absent the presence of the jeopardy-barred offense.”
The Court noted that the basis for finding or presuming prejudice present in
Price (the possibility that the murder charge against Price induced the jury to find
him guilty of the less serious offense of voluntary manslaughter rather than to
continue to debate his innocence), was not present since the jury did not acquit
Mathews (as in the present case of Petitioner Middleton acquittal) but rather found
him guilty of the greater offense of aggravated murder, and a fortiori, the lesser
offense of murder.
Under the factual circumstances of Petitioner’s Middleton case, he has pled
and demonstrated but for the improper inclusion of the jeopardy-barred charge, the
result of the proceeding would have been different. As such, it cannot be said that
the jury necessarily found that the Petitioner's conduct satisfied the elements of
First Degree Murder. Accordingly, the Petitioner's ultimate conviction for Second

15

Degree Murder cannot be deemed curative of the double jeopardy violation. Given
the differences between the Petitioner's second trial and the challenged proceedings
in Mathews, the analysis in the factually similar Price case controls.
Lastly, as in Price, unlike Mathews, Petitioner second trial was before a jury.
This Court in Price credibly worried about the “risk or hazard of trial and
conviction” stemming from the improper second charge. In particular, it registered
concern that the jeopardy-barred charge “induced the jury to find [the defendant]
guilty of the less serious offense...rather than to continue to debate his innocence.
Because Middleton's second trial was a jury trial, “the primary evil addressed in
Pricer the risk of jury prejudice-is present” here.
It is certainly true, as this Court may conclude, that Price is “factually
similar” to this case. And it must further conclude that the Eleventh Circuit Court
of Appeals, in not applying Price in review of Middleton's Fifth Amendment claim,
did in fact contravene clearly established federal law under AEDPA.

II.

This Court has long recognized the application of Williams v Taylor, 529

U.S. 362. 413, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000) wherein relief is authorized
if a state court has arrived at a conclusion contrary to that reached by the Supreme
Court on a question of law or if the state court has decided a case differently than
the Supreme Court on a set of materially indistinguishable facts.
In petitioner’s case he more than met this standard of review by
demonstrating Strickland v. Washington, 466 U.S. 668. 687, 104 S. Ct. 2052, 80 L.

16

Ed. 2d 674 (1984), and further the standard of review in this Court is that set forth
in 28 U.S.C. 2254(d). Pursuant to that statute, an application for a writ of habeas
corpus shall not be granted with respect to any claim that a state court has
adjudicated on the merits unless the adjudication has “(l) resulted in a decision
that was contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United States; or (2)
resulted in a decision that was based on an unreasonable determination of the facts
in light of the evidence presented in the state court proceeding
A habeas petitioner who asserts that he was provided with ineffective
assistance of counsel must affirmatively demonstrate (l) that his counsel's
performance was “deficient”, i.e., that counsel made errors so serious that counsel
was not functioning as the “counsel” guaranteed the defendant by the Sixth
Amendment; and (2) that the deficient performance prejudiced his defense, i.e., that
counsel's errors were so serious as to deprive the defendant of a fair trial, a trial in
which the result is reliable. The petitioner must make both showings in order to
obtain habeas relief based upon the alleged ineffective assistance of counsel. Id.
If the petitioner satisfies the first prong of the Strickland test, however, his
petition nonetheless must affirmatively demonstrate prejudice resulting from the
alleged errors. Earvin v. Lynaugh, 860 F.2d 623. 627 (5th Cir. 1988). To satisfy the
prejudice prong of the Strickland test, it is not sufficient for the petitioner to show
that the alleged errors had some conceivable effect on the outcome of the
proceeding. Strickland v. Washington, supra, 466 U.S. at 693. Rather, the petitioner

17
\

must show a reasonable probability that, but for counsel's alleged errors, the result
of the proceeding would have been different. Martin v. McCotter, supra, 796 F.2d at
816. The petitioner need not show that his counsel's alleged errors “more likely than
not” altered the outcome of the case; he must instead show a probability that the
errors are “sufficient to undermine confidence in the outcome.” Id. at 816-17
(citation omitted). Both the Strickland standard for ineffective assistance of counsel
and the standard for federal habeas review of state court decisions under 28 U.S.C.
2254(d)(1) are highly deferential, and when the two apply in tandem, the review by
federal courts is "doubly deferential." Knowles v. Mirzayance, 556 U.S. Ill, 123, 129
S. Ct. 1411, 173 L. Ed. 2d 251 (2009).
Also as argued in Point I, it is undisputed that petitioner's second trial for
first degree murder, after having previously been acquitted of that charge, violated
the Double Jeopardy Clause of the Fifth Amendment. To add insult to injury,
counsel also failed to object to justifiable use of deadly force instructions which
negated Petitioner’s sole defense of self defense.
Finally, trial counsel failed to file a petition for writ of prohibition after the
trial court erroneously denied Petitioner’s motion to dismiss the indictment
charging first degree murder.
Since petitioner satisfied the first prong of the Strickland test, overlooked by
the lower court, his petition nonetheless affirmatively demonstrates prejudice
resulting from the errors.

18

To prove counsel was deficient, the defendant offers that counsel's
representation fell below an objective prevailing professional standard of
reasonableness. This assessment is determined by looking to the situation of his
three failures enumerated above and this Court must respectfully conclude that
there exist a strong presumption that counsel’s conduct does not fall within the wide
range of reasonable professional assistance and the record certainly discloses that
these actions of Petitioner’s counsel can be reasonably part of a sound trial strategy.
Thus, Petitioner’s claim must prevail as the above showing is one that petitioner
certainly can and does make in his case. See e.g., Earvin v. Lynaugh, 860 F.2d 623
627 (5th Cir. 1988); Williams v. Taylor, 529 U.S. 362. 413, 120 S. Ct. 1495, 146 L.
Ed. 2d 389 (2000).
The Eleventh Circuit has failed to recognize the issues presented were
adequate to deserve encouragement to proceed further. Thus, this Court may afford
the Petitioner the one percentage it holds in deciding whether to accept or deny
such case upon request via writ of certiorari. See Tennard v. Dretke, 542 U.S. 274,
282, 124 S. Ct. 2562, 159 L. Ed. 2d 384 (2004) (quoting Slack v. McDaniel. 529 U.S.
473. 484, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000)); Miller-El v. Cockrell, 537 U.S.
322. 335-36, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003) (quoting Barefoot v. Estelle,
463 U.S. 880. 893 n.4, 103 S. Ct. 3383, 77 L. Ed. 2d 1090 (1983)).
Upon due consideration, this Supreme Court of the United States should
grant certiorari and reverse.

19

CONCLUSION
In view of the foregoing facts, arguments, and authorities, Petitioner
respectfully submits that a writ of certiorari should be granted.
So Mote Be.
Respectfully submitted,

VV- urVNi/i^ilJjJbaYv^

/s/

Roy Howard Middleton Jr., Petitioner
+Vv

Date:

20

l

, 2020

